                   U.S. Department of Agriculture

                      Office of Inspector General
                                 Northeast Region




          Audit Report


Electronic Benefits Transfer System
         State of Colorado




                         Report No. 27099-68-HY
                                      June 2008
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL
                                             Northeast Region
                                               Suite 2-2230
                                   5601 Sunnyside Avenue, Stop 5300
                                     Beltsville, Maryland 20705-5300




June 20, 2008

REPLY TO
ATTN OF:        27099-68-Hy

TO:             Darlene Barnes
                Regional Administrator
                Food and Nutrition Service

ATTN:           Ralph King
                Acting Director
                Financial Management

FROM:           Gil H. Harden /s/
                Regional Inspector General
                  for Audit

SUBJECT:        Electronic Benefits Transfer (EBT) System—State of Colorado


This report presents the results of our audit of the Electronic Benefits Transfer System—State of
Colorado. Your response to the official draft, dated May 29, 2008, is included as exhibit B. Excerpts
of your response and the Office of Inspector General’s (OIG) position are incorporated into the
Findings and Recommendations section of the report. Based on your response, we were able to reach
management decision on Recommendation 2. Please follow your agency’s internal procedures in
forwarding documentation for final action to the Office of the Chief Financial Officer. Management
decision for Recommendations 1 and 3 through 20 can be reached once you have provided us with the
additional information outlined in the report section OIG Position.

In accordance with Department Regulation 1720-1, please furnish a reply within 60 days describing
the planned corrective actions and the timeframes for implementing them for Recommendations 1 and
3 through 30. Please note that regulation requires management decision to be reached on all findings
and recommendations within 6 months from report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff during this
audit.
Executive Summary
Electronic Benefits Transfer System – State of Colorado
(Audit Report No. 27099-68-Hy)

Results in Brief                      In September 2004, the Colorado Department of Human Services (CDHS)
                                      implemented the Colorado Benefits Management System (CBMS).
                                      According to an April 2007 press report, CBMS was a new state-of-the-art
                                      computerized eligibility system that was intended to streamline the welfare
                                      process. The system is used to dispense Food and Nutrition Service (FNS)
                                      Food Stamp Program (FSP) benefits in Colorado. 1 FSP benefit information in
                                      CBMS is transmitted to Colorado’s Electronic Benefits Transfer (EBT)
                                      system that is used to operate the FSP in Colorado. According to a
                                      May 2007 press report, CBMS was launched prematurely against the advice
                                      of systems experts and county officials who claimed it had not undergone
                                      adequate testing. In the months after implementation, the State over-issued
                                      benefits to and established invalid claims 2 against welfare clients. These
                                      problems still remain an issue.

                                      In 2006, FNS officials in Denver, Colorado informed the Office of Inspector
                                      General (OIG) of multimillion dollar discrepancies and unexplained
                                      over-issuances caused by the failure of CBMS to operate properly. As a
                                      result, we initiated this audit as part of our multi-year plan to provide a
                                      comprehensive assessment of the adequacy of the established controls over
                                      EBT on a national basis and evaluate the effectiveness of FNS’ oversight
                                      efforts. The objectives of this audit were to determine whether the FNS
                                      Mountain Plains Regional Office’s (MPRO) oversight of Colorado’s EBT
                                      system was adequate, identify and assess the EBT system controls Colorado
                                      established for critical operations, assess the adequacy of the State's
                                      administration and management of the EBT system, and review compliance
                                      with applicable laws and regulations.

                                      The FSP is administered by FNS through a Federal-State partnership. FNS’
                                      MPRO ensures that States (e.g., Colorado) comply with Federal regulations
                                      and handle daily concerns that arise from EBT operations at the State level.
                                      CDHS is directly responsible for the management of Colorado’s FSP and the
                                      EBT system.

                                      Although the audit did not disclose any deficiencies with the EBT system
                                      itself, we determined that CDHS’ management of the FSP through its EBT
                                      system needs significant improvement. CDHS needs to improve controls for
                                      issuing FSP benefits and establishing claims through CBMS. In addition, we
                                      found deficiencies in controls that CDHS established to oversee and secure
                                      its EBT system. For example, we did not find evidence that CDHS used
                                      available EBT management reports to monitor program operations for

1
    CBMS is also used to dispense other State and Federal benefits such as Temporary Assistance to Needy Families.
2
    A claim is an amount owed by a FSP recipient because of an over-issuance by the State.

USDA/OIG-Audit No. 27099-68-Hy                                                                                       Page i
                                    improper activity. CDHS also did not establish units to assist in the
                                    prosecution of trafficking 3 by food stamp recipients. While the Federal
                                    Government monitors retailer participation, 4 it is the State’s responsibility to
                                    monitor actions by FSP recipients. 5 We also noted that deficiencies in issuing
                                    benefits and EBT system security were repeat findings. OIG identified
                                    similar issues in our 1999 audit of Colorado’s EBT system regarding issuance
                                    management and system access. 6

                                    No areas of concern came to our attention that would cause us to question the
                                    adequacy of FNS MPRO’s oversight of the State. FNS MPRO has worked
                                    with CDHS to correct deficiencies in CBMS since the State implemented the
                                    system in September 2004. However, according to FNS officials, the State
                                    experienced high turnover rates since then because of employees’ frustration
                                    with the system, further compounding the problems. During this time, MPRO
                                    also performed reviews of the State’s EBT system and provided feedback on
                                    issues found. MPRO worked with the State on a variety of programmatic
                                    issues, including collection of card replacement fees and training for the use
                                    of EBT at Farmer’s Markets. However, as a result of the findings disclosed in
                                    our audit, we concluded that significant deficiencies continue to exist and that
                                    MPRO needs to initiate enforcement actions (i.e., suspension or disallowance
                                    of administrative funds) if the problems identified in the report are not
                                    corrected within established timeframes.

                                    Colorado Needs to Improve Issuance Management Controls

                                    •    Problems with CBMS began immediately upon implementation in
                                         September 2004. Within one month, FNS MPRO noticed significant
                                         increases in food stamp issuances. Complexities 7 in CBMS caused
                                         significant backlogs in FSP applications. County caseworkers delivered
                                         benefits without properly determining eligibility to ensure applications
                                         were processed within the required 30 day timeframe. 8 FNS MPRO
                                         collected over $1 million from CDHS for improper issuances made to
                                         FSP recipients between October and December 2004.

                                          In 2006, FNS MPRO analyzed fiscal year (FY) 2005 issuances and
                                          identified an additional $11.1 million in over-issuances made to FSP
                                          recipients. FNS’ analysis identified design flaws in CBMS that caused
                                          the system to incorrectly calculate benefits. In February 2006, CDHS
                                          resolved a system-caused error that resulted in over-issuances, through
                                          programming changes to the system. However, the FNS analysis also
                                          disclosed that a lack of controls in CBMS allowed data entry errors.
                                          CDHS tried to resolve these issues through training but their efforts to

3
    Exchanging food stamp benefits for cash.
4
    Title 7 C.F.R. 278.7(a), January 1, 2007
5
    Title 7 C.F.R. 273.16, January 1, 2007
6
    Since our prior audit in 1999, Colorado has implemented new systems for issuance management and EBT.
7
    According to Adams County staff, CBMS is complex because there are approximately 60 display screens a caseworker must navigate through while
    working on a single FSP case.
8
    Title 7 C.F.R 274.2(b), January 1, 2007

USDA/OIG-Audit No. 27099-68-Hy                                                                                                        Page ii
                                             date remain unsuccessful. FNS MPRO submitted a bill of collection for
                                             the $11.1 million but CDHS appealed to the State Food Stamp Appeals
                                             Board. The Board ruled in favor of FNS MPRO. FNS MPRO performed
                                             an analysis on FY 2006 FSP issuances similar to the FY 2005 analysis.
                                             We have not examined the results of this analysis. In addition, our
                                             limited testing identified nearly $106,000 in potential duplicate
                                             over-issuances in FY 2006, due to caseworker data entry errors.

                                              In addition to issuance errors, CBMS established invalid claims against
                                              households for food stamp benefits previously issued. This occurred
                                              because programming errors allowed CBMS to establish claims for
                                              months that they were not intended. As of September 2007, the two
                                              counties we visited had almost 17,000 discrepancy records (i.e., potential
                                              claims) 9 worth over $17.4 million. 10 County officials explained that
                                              validating the accuracy of a discrepancy record takes hours due to the
                                              complexity of CBMS causing serious backlogs of potential claims.

                                       Colorado Needs to Improve FSP Oversight

                                       •     Colorado officials were aware of EBT management reports; however, we
                                             did not find evidence that CDHS used them. CDHS did not assign
                                             responsibilities and duties to ensure that FSP redemptions are monitored
                                             regularly, corrective actions are taken on problems identified, and
                                             suspicious transactions are referred to the proper authorities. Instead,
                                             CDHS relied on food stamp quality control reviews of eligibility
                                             determinations. In addition, they focused their attention on recipients who
                                             misused cash benefits. 11 Using the available EBT management reports,
                                             we identified over $2 million in questionable transactions that may be
                                             indicative of recipient trafficking in Colorado’s FSP from April to
                                             September 2006.

                                       •     CDHS did not establish required fraud detection units to detect,
                                             investigate, and assist in the prosecution of FSP trafficking. This occurred
                                             because CDHS chose to devote its resources to quality assurance testing
                                             of FSP eligibility determinations, 12 not trafficking after benefits have
                                             been issued. The CDHS Director did not provide a reason why Colorado
                                             did not establish and operate fraud detection units. As a result, the
                                             integrity of Colorado’s FSP was weakened and the detection of improper
                                             activity was compromised. We identified large or rapidly occurring
                                             transactions at three retailers and conducted site visits with an OIG


9
     CBMS is designed to identify any discrepancy in authorized benefits. CBMS caseworkers must then research a discrepancy to determine if it is a valid
     claim.
10
     Adams County officials could not provide us with the total amount of cases with potential claims.
11
     CDHS administers cash benefits under the Temporary Assistance for Needy Families program, which is a U.S. Department of Health and Human
     Services program.
12
     FNS has a statistically based quality control program that measures the extent of improper payments and detects erroneous payments due to errors in
     determining recipient eligibility. The program provides a system of incentives and penalties to encourage State-administering agencies to lower their
     error rates and ensure that eligible individuals receive the proper amount of program benefits.

USDA/OIG-Audit No. 27099-68-Hy                                                                                                                Page iii
                        investigator. The OIG investigator initiated an investigation for each of
                        these three stores.

                    •   CDHS could not reconcile JPMorgan Electronic Financial Services (JPM)
                        billing invoices for EBT services to CBMS. CBMS did not produce the
                        detailed information necessary to complete the reconciliation. As a result,
                        the State could not be assured that it was billed the correct amount. In
                        addition, the Federal Government pays 50 percent of the State’s FSP
                        administrative costs; therefore, FNS could not be assured that they did not
                        overpay for Colorado’s EBT services through its administrative
                        reimbursement. Due to past billing discrepancies, CDHS overpaid JPM
                        $187,000 between July 2000 and February 2004, highlighting the need
                        for CDHS to improve its ability to verify billing invoices.

                    •   States are allowed to charge recipients a fee to replace their EBT card.
                        Conversely, there is a provision built into Colorado’s EBT contract that
                        allows for the replacement of EBT cards by JPM at no additional charge
                        to the State. In Colorado, counties that charge the replacement fee must
                        use revenues generated to reduce its reimbursement for FSP
                        administrative costs. CDHS could not identify the amount of EBT card
                        replacement fees collected at county offices. This occurred because
                        CDHS did not establish an account for recording these fees or instruct
                        county offices on how to account for them. As a result, CDHS could not
                        provide assurances that FSP administrative costs were reduced to reflect
                        the collections. Colorado had a monthly average of over 107,000 food
                        stamp households in 2006. Colorado counties issued 60,587 replacement
                        cards between April and September 2006, for a 6 month average of
                        10,097 cards per month. We believe that a card replacement rate of
                        10 percent is unreasonable and warrants further review by CDHS and
                        FNS.

                    Colorado Needs to Improve EBT System Security

                    •   CDHS did not implement sufficient controls over access to the EBT
                        system. CDHS officials did not deactivate 34 of 1,167 EBT users who
                        had not accessed the EBT system in over 90 days. They remained active
                        system users even though the EBT contract requires that user access be
                        deactivated after 90 days of inactivity. In addition, a CDHS manager was
                        able to use a retired person’s log-on identification (ID) and password to
                        gain access to the EBT system. This occurred because CDHS did not
                        regularly monitor the continued need for access to the EBT system. As a
                        result, there is an increased risk of unauthorized access to the system.

                    • CDHS did not adequately control un-issued benefit cards. As a result,
                      there is increased risk of unauthorized use of FSP benefits.



USDA/OIG-Audit No. 27099-68-Hy                                                             Page iv
                                           The State authorized waivers 13 for 25 small counties that allowed
                                           eligibility workers to issue EBT cards without FNS’ approval. However,
                                           certification and issuance functions should be segregated. The waivers
                                           were issued because of inadequate staff at small counties.

                                           At the two large counties we visited, county officials did not adequately
                                           control un-issued benefit cards. For example, in both counties, the bulk
                                           supply of un-issued cards was accessible to employees who did not need
                                           this access. This occurred because the State Agency’s EBT card issuance
                                           guidance to county offices insufficiently addressed security over the
                                           inventory of blank EBT cards.

                                      We consider the continuing noncompliance with FSP regulations by CDHS
                                      as material weaknesses in its administration and management of the FSP.
                                      Therefore, FNS should initiate enforcement actions, such as suspension or
                                      disallowance of administrative funds, if the problems identified in this report
                                      are not corrected within established timeframes.

Recommendations
In Brief                              FNS should require CDHS to ensure that errors in CBMS are corrected and
                                      claims properly established. FNS MPRO should perform CBMS data analysis
                                      for FY 2007, if the FY 2006, data analysis project discloses significant
                                      over-issuances. FNS MPRO should also pursue for collection any
                                      over-issuances identified in their analysis and the $106,000 we identified
                                      during this audit. FNS should require that CDHS improve oversight of its
                                      EBT system and strengthen controls over system security to prevent misuse
                                      of FSP funds.

                                      We recommend that if the State agency does not correct the deficiencies
                                      noted in this report within established timeframes, FNS should initiate actions
                                      to suspend or disallow administrative funds to the State.

Agency Response
                                     FNS agreed with the report’s 20 recommendations. We have incorporated
                                     FNS’ response in the Findings and Recommendations section of this report,
                                     along with the OIG position. FNS’ response is included as Exhibit B.
OIG Position
                                    Based on FNS’ response, we were able to reach management decision on
                                    Recommendation 2. Management decision on Recommendations 1 and
                                    3 through 20 can be reached once FNS has provided us with the additional
                                    information outlined in the report section, OIG Position.




13
     These are State approved waivers, not FNS approved waivers.

USDA/OIG-Audit No. 27099-68-Hy                                                                                Page v
Abbreviations Used in This Report


CBMS               Colorado Benefits Management System
CCR                Colorado Code of Regulations
CDHS               Colorado Department of Human Services
C.F.R.             Code of Federal Regulations
EBT                Electronic Benefits Transfer
FNS                Food and Nutrition Service
FSP                Food Stamp Program
FY                 Fiscal Year
GAO                Government Accountability Office
ID                 Identification
JPM                JPMorgan Electronic Financial Services
MPRO               Mountain Plains Regional Office
NER                Northeast Region
OIG                Office of Inspector General
POS                Point of Sale
P.L.               Public Law
SAOR               State Agency Operations Review
SF                 Standard Form
USDA               U. S. Department of Agriculture




USDA/OIG-Audit No. 27099-68-Hy                              Page vi
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................vi

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 4

    Section 1            Significant Improvements Needed in Colorado’s Oversight of FSP Operations . 4

        Finding 1             …............................................................................................................................. 4
                                  Recommendation 1 .......................................................................................... 6

    Section 2            State Issuance Management Controls Need Strengthening ................................... 7

        Finding 2             ………..................................................................................................................... 7
                                Recommendation 2 ........................................................................................ 10
                                Recommendation 3 ........................................................................................ 10
                                Recommendation 4 ........................................................................................ 10
                                Recommendation 5 ........................................................................................ 11
                                Recommendation 6 ........................................................................................ 11

    Section 3            Inadequate Oversight of FSP Operations .............................................................. 13

        Finding 3             CDHS Needs to Use EBT Management Reports to Strengthen Program
                              Oversight ............................................................................................................... 13
                                  Recommendation 7 ........................................................................................ 15
        Finding 4             CDHS Needs to Establish Food Stamp Fraud Detection Unit(s) to
                              Investigate Trafficking .......................................................................................... 15
                                  Recommendation 8 ........................................................................................ 17
                                  Recommendation 9 ........................................................................................ 17
                                  Recommendation 10 ...................................................................................... 18
        Finding 5             JPM’s Billing Invoices Need Verification ............................................................ 18
                                  Recommendation 11 ...................................................................................... 19
                                  Recommendation 12 ...................................................................................... 19
        Finding 6             CDHS Needs Stronger Controls over Income from EBT Card Replacement
                              Fees........................................................................................................................ 20
                                  Recommendation 13 ...................................................................................... 22
                                  Recommendation 14 ...................................................................................... 22
                                  Recommendation 15 ...................................................................................... 22

    Section 4            Security over the EBT System Needs Strengthening ............................................ 24

        Finding 7             EBT System Access Controls Need to be Strengthened ....................................... 24
                                 Recommendation 16 ...................................................................................... 25

USDA/OIG-Audit No. 27099-68-Hy                                                                                                                   Page vii
                                Recommendation 17 ...................................................................................... 25
        Finding 8            CDHS Controls Over EBT Cards Need Improvement.......................................... 26
                                Recommendation 18 ...................................................................................... 27
                                Recommendation 19 ...................................................................................... 28
                                Recommendation 20 ...................................................................................... 28

Scope and Methodology........................................................................................................................ 29

Exhibit A – Summary of Monetary Results ....................................................................................... 31

Exhibit B – Agency Response............................................................................................................... 32




USDA/OIG-Audit No. 27099-68-Hy                                                                                                     Page viii
Background and Objectives
Background                              The U.S. Department of Agriculture’s (USDA) Food and Nutrition Service
                                        (FNS) administers the Food Stamp Program (FSP), which assists low-income
                                        households by increasing their ability to purchase food. Once a month, each
                                        participating household receives a benefit allotment determined by the
                                        number of individuals in the family, household income, and other related
                                        factors. Recipients can use the benefits to pay for food items at participating
                                        food retailers.

                                        The Food Stamp Act of 1977, Public Law (P.L.) 88-525, authorized FNS to
                                        experiment with alternative methods for the delivery of FSP benefits using
                                        electronic data processing and computer technology. With this authorization,
                                        FNS allowed State agencies to begin issuing FSP benefits using an Electronic
                                        Benefits Transfer (EBT) system. The Personal Responsibility and Work
                                        Opportunity Reconciliation Act of 1996, P.L. 104-193, provided that all
                                        States 14 must implement EBT systems before October 1, 2002, unless the
                                        requirement was waived. Additionally, the EBT Interoperability and
                                        Portability Act of 2000 mandated cost-effective portability of food stamp
                                        benefits across State borders by October 1, 2002.

                                        The FSP is administered by FNS through a Federal-State partnership. The
                                        Federal Government pays the full cost of recipient benefits and shares the
                                        cost to administer the FSP with the States. Congress funds the FSP through
                                        direct appropriation. In fiscal year (FY) 2007, nearly $30.3 billion in FSP
                                        benefits were issued through EBT systems. Colorado’s FSP delivered over
                                        $310 million of these benefits.

                                        Before EBT, the basic method of FSP benefit delivery was the food stamp
                                        coupon. EBT was developed to replace paper coupons with an electronic
                                        system. EBT systems provide computerized delivery of FSP benefits. Using
                                        plastic cards, much like a debit card along with a personal identification
                                        number, recipients gain access to benefits through point of sale (POS)
                                        terminals located at approved food retailers.

                                        FNS has established approval rules for the delivery of FSP benefits using
                                        EBT      systems    in     Title   7    Code      of    Federal      Regulations
                                        (C.F.R.) § 274.12, updated January 1, 2007, and for approving plans for
                                        automated data processing systems in Title 7 C.F.R. § 277.18, updated
                                        January 1, 2007. The FSP regulations specify functional areas to be addressed
                                        by the State agency but do not establish a standardized system of internal
                                        controls. FNS' policy is to allow the States the flexibility to establish control
                                        systems that meet the needs of the individual States.


14
     For purposes in this report, “States” will refer to all 50 U.S. States, Guam, Puerto Rico, Virgin Islands, and Washington D.C.

USDA/OIG-Audit No. 27099-68-Hy                                                                                                        Page 1
                                     Generally, States award contracts to private sector companies to develop and
                                     operate their EBT systems. These companies are usually financial institutions
                                     or other organizations that already handle debit and credit card systems or
                                     electronic funds transfer activities. However, the States remain financially
                                     liable to the Federal Government for actions of their EBT processors. As of
                                     January 2007, there were four prime EBT contractors plus three States who
                                     were acting as their own prime contractor. A prime contractor is the
                                     contractor selected by the State to oversee all EBT functions. Thirty-three
                                     States and territories, including Colorado have selected the same prime
                                     contractor, JPMorgan Electronic Financial Services (JPM).

                                     FNS’ Mountain Plains Regional Office (MPRO) conducts management
                                     evaluations to ensure all States 15 within their region comply with Federal
                                     regulations and handles daily concerns arising from EBT operations at the
                                     State level.

                                     The FNS National office and MPRO also share responsibilities. They both
                                     ensure free and open competition among vendors, review all appropriate
                                     records pertaining to State EBT contracts, review test scripts and design
                                     documents for launch of a new system, attend National EBT conferences and
                                     workgroups, ensure that State limits on EBT-FSP funds are not exceeded, and
                                     continue development and monitoring of the Watch List. 16

                                     States administer and manage the FSP for FNS. The Colorado Department of
                                     Human Services (CDHS) is the State agency that oversees FSP EBT
                                     operations in the State. The State determines eligibility, calculates benefit
                                     amounts, and contracts for EBT services. An EBT system account is
                                     established for each participating household and each household is issued a
                                     benefit card. The State prepares and sends an electronic file documenting the
                                     amount of benefits for each household to the EBT processor. The State has
                                     responsibility to ensure that the EBT processor provides access to program
                                     benefits accurately and timely. Additionally, the State must ensure that the
                                     information the EBT processor provides to FNS systems is accurate.

                                     The Office of Inspector General (OIG) previously audited Colorado’s
                                     oversight of its EBT system in September 1999. We identified two similar
                                     issues in our current audit (issuance management and system access).
                                     Although CDHS has been affected by a high turnover in staff since the State
                                     implemented the Colorado Benefits Management System (CBMS), FNS and
                                     CDHS need to be aware of these management issues and correct them
                                     accordingly.

                                     We selected EBT operations in Colorado for review because FNS MPRO
                                     officials brought to our attention the multimillion dollar discrepancies that
                                     FNS identified as a result of the failures of CBMS to operate properly. As

15
     MPRO oversees 10 States: Colorado, Iowa, Kansas, Missouri, Montana, Nebraska, North Dakota, South Dakota, Utah and Wyoming.
16
     The Watch List is a list of firms that may be violating the FSP.

USDA/OIG-Audit No. 27099-68-Hy                                                                                                     Page 2
                    part of our multi-year review to evaluate EBT operations for FNS’ FSP, we
                    have issued a report on FNS National Office oversight of EBT operations
                    (Audit Report No. 27099-66-Hy, issued September 2006). We have also
                    issued a report on JPM’s oversight of EBT operations (Audit Report
                    No. 27099-69-Hy, issued September 2007).

Objectives          The objectives of this audit were to (1) determine the roles and
                    responsibilities of the regional office in the implementation and
                    administration of EBT systems, (2) determine whether the regional office's
                    oversight of EBT is adequate, (3) identify EBT operational concerns for
                    further review and assessment during the audit, (4) determine the EBT
                    system controls Colorado established for critical operations and assess the
                    operation of these controls, (5) assess the adequacy of the State's
                    administration and management of its EBT system, and (6) review
                    compliance with applicable laws and regulations.

                    To accomplish these audit objectives, we interviewed staff at FNS MPRO,
                    CDHS, Jefferson County, Adams County, JPM, OIG Investigations and the
                    Colorado State Auditor’s office. In addition, we audited EBT system security,
                    integrity of EBT benefits being delivered to recipients, FNS MPRO oversight
                    of CDHS, and CDHS management of its EBT system. We reviewed
                    compliance with the Colorado Code of Regulations (CCR), C.F.R. and the
                    EBT processor’s contract with the State.




USDA/OIG-Audit No. 27099-68-Hy                                                            Page 3
Findings and Recommendations
Section 1               Significant Improvements Needed in Colorado’s Oversight of FSP
                        Operations
Finding 1                               …
                                        CDHS needs to strengthen controls over the FSP. Our tests identified
                                        inadequate State oversight and weak controls in the State issuance
                                        management system. We also found that the State did not implement
                                        sufficient controls for securing the EBT system and EBT cards. These
                                        weaknesses occurred because of poor program administration by CDHS.
                                        Without sustained improvements in program administration, FNS MPRO
                                        should initiate actions to suspend or disallow administrative funds provided
                                        to the State. FNS provided CDHS with over $29 million in Federal funds to
                                        administer the FSP in FY 2007. Furthermore, weak EBT controls place FSP
                                        benefits at risk of misuse. In FY 2007, Colorado delivered approximately
                                        $310 million in FSP benefits.

                                        Federal regulations require the State to be responsible for the coordination
                                        and management of the EBT system. 17 Federal regulations also require FNS
                                        to determine whether the State agency has efficiently and effectively
                                        administered the FSP. When FNS identifies inefficient or ineffective
                                        administration, Federal regulations empower FNS to warn the State that
                                        suspension and/or disallowance of administrative funding is being
                                        considered. 18

                                        Colorado implemented its new eligibility system, CBMS, in September 2004.
                                        The system transmits authorized food stamp benefits to Colorado’s EBT
                                        system that is used to operate the FSP in the State. However, CBMS has
                                        caused significant problems delivering benefits since implementation. Within
                                        nine days of implementation, a county reported that FSP applications would
                                        not be completed within the required 30 day processing timeframes. 19 By
                                        November 2004, over 29,000 cases did not meet the processing timeframe.
                                        As a result, the State faced litigation by FSP recipients who did not timely
                                        receive their benefits. According to FNS officials, problems in Colorado have
                                        been compounded by the high turnover rate of State employees due to
                                        frustration with CBMS.

                                        Between October and December 2004, the State authorized pending FSP
                                        applications without properly determining eligibility. FNS MPRO collected
                                        over $1 million from the State due to these improper issuances. In addition,
                                        FNS MPRO analyzed FY 2005, issuances and found that CBMS incorrectly
                                        issued benefits. FNS billed CDHS an additional $11.1 million for
                                        over-issuances identified in the analysis. FNS MPRO performed another

17
     Title 7 C.F.R. 274.12 (b)(2), January 1, 2007
18
     Title 7 C.F.R. 276.4(a)(3), January 1, 2007
19
     Title 7 C.F.R. 274.2(b), January 1, 2007

USDA/OIG-Audit No. 27099-68-Hy                                                                                Page 4
                                    analysis on FY 2006 issuances to determine if over-issuances continue to be a
                                    problem. We have not examined the results of this analysis because FNS has
                                    not finalized the analysis report.

                                    Although FNS MPRO has worked with CDHS to correct deficiencies in
                                    CBMS and the agency’s administration of the FSP, further corrective actions
                                    are needed. Failure to timely correct the following issues identified during the
                                    audit could warrant additional action by FNS MPRO.

                                    State Issuance Management

                                    • County caseworker data entry errors caused over-issuances to FSP
                                      recipients. We identified 637 potential over-issuances totaling nearly
                                      $106,000 when caseworkers updated client accounts in FY 2006. We also
                                      found that CBMS was not programmed to prevent claims from being
                                      established too early. 20 Also, as of September 2007, the two counties we
                                      visited had almost 17,000 potential claims worth more than $17.4 million
                                      (see Finding 2).

                                    Oversight of FSP Operations

                                    •    State and county officials provided no evidence that CDHS used reports
                                         provided by JPM to manage the FSP and did not establish required fraud
                                         detection units to detect, investigate, and assist in the prosecution of FSP
                                         fraud. Instead, CDHS relied on food stamp quality control reviews of
                                         eligibility determinations. In addition, they focused their attention on
                                         recipients who misused cash benefits. 21 Using the available EBT
                                         management reports, we identified over $2 million in questionable
                                         transactions that may be indicative of recipient trafficking in Colorado’s
                                         FSP from April to September 2006. In addition, the integrity of
                                         Colorado’s FSP was weakened and the detection of improper activity was
                                         compromised (see Findings 3 and 4).

                                    •    CDHS could not reconcile JPM billing invoices for EBT services to
                                         CBMS. CBMS did not produce the detailed information necessary to
                                         complete the reconciliation. As a result, the State could not be assured
                                         that it was billed the correct amount nor could FNS be assured that they
                                         did not overpay for Colorado’s EBT services through its administrative
                                         reimbursement. Billing discrepancies in the past disclosed that the State
                                         overpaid JPM $187,000 (see Finding 5).

                                    •    CDHS could not identify the amounts of EBT card replacement fees
                                         collected at county offices. As a result, CDHS could not provide
                                         assurances that EBT card replacement fees were safeguarded and that
                                         FSP administrative costs were reduced to reflect the collections. Colorado
20
     A claim is an amount owed by a FSP recipient because of an overpayment by the State.
21
     CDHS administers cash benefits under the Temporary Assistance for Needy Families program, which is a U.S. Department of Health and Human
     Services program.

USDA/OIG-Audit No. 27099-68-Hy                                                                                                      Page 5
                        counties issued 60,587 replacement cards between April and September
                        2006 for a 6 month average of 10,097 cards per month (see Finding 6).

                    EBT System Security

                    •   CDHS did not comply with system access requirements for deactivating
                        users and ensuring each user uses their own log-on identification (ID). As
                        a result, FSP funds were at risk of unauthorized access and use (see
                        Finding 7).

                    •   CDHS did not adequately control un-issued EBT cards. As a result, the
                        State did not have assurance that FSP benefits were safeguarded (see
                        Finding 8).

                    CDHS’ continuing noncompliance with FSP regulations is a material
                    weakness in the State’s administration and management of the FSP. In light
                    of the findings disclosed in this audit and that two findings are repeat findings
                    (i.e., FSP issuance management and EBT system access) from OIG’s
                    1999 audit, FNS should initiate actions to suspend or disallow administrative
                    funds in accordance with Federal regulations if CDHS does not correct these
                    deficiencies within established timeframes.

Recommendation 1
                    FNS should initiate actions to suspend or disallow administrative funds if the
                    State agency does not correct the deficiencies noted in this report within
                    established timeframes.

                     Agency Response

                     FNS concurs with Recommendation No. 1. FNS will work with the State
                     agency to establish realistic timeframes to correct the deficiencies noted in
                     the report, subject to subsequent timeframe revisions approved by FNS.

                    OIG Position

                     We cannot accept FNS’ management decision until FNS provides
                     timeframes for correcting the deficiencies noted in the report.




USDA/OIG-Audit No. 27099-68-Hy                                                               Page 6
Section 2               State Issuance Management Controls Need Strengthening

Finding 2                              ………
                                       Since implementing CBMS in September 2004, CDHS erroneously issued
                                       FSP benefits to recipients and established invalid claims against households.
                                       These errors occurred because of design flaws in CBMS and caseworker data
                                       entry errors that caused over-issuances when the caseworker updated FSP
                                       recipient accounts. Also, CBMS was not programmed to prevent claims from
                                       being established too early. Also, an Adams county official explained that
                                       validating the accuracy of a discrepancy record (i.e., potential claim) 22 can
                                       take several hours due to the complexity of CBMS. We identified
                                       637 potential over-issuances totaling nearly $106,000 in FSP benefits in
                                       FY 2006. Also, as of September 2007, the two counties we visited had almost
                                       17,000 potential claims worth more than $17.4 million.23

                                       Federal regulations require FSP benefits to be distributed timely and in the
                                       correct amount. 24 Federal regulations also instruct States to develop a plan
                                       for establishing and collecting claims that provides orderly claims processing.
                                       If these standards are not met, then States must take corrective action to
                                       rectify any deficiencies in the plan. 25 In addition, Colorado regulations
                                       require FSP offices to be responsible for the timely and accurate issuance of
                                       benefits to certified eligible households. 26

                                       Problems with CBMS began immediately upon implementation in
                                       September 2004. Within nine days of implementation, Adams County
                                       officials alerted CDHS that FSP applications may not be completed within
                                       the required 30 day processing timeframes. On October 19, 2004, a class
                                       action lawsuit was filed in Colorado District Court by eight Colorado citizens
                                       for damages caused by the implementation of CBMS. The case disclosed that
                                       five of the eight plaintiffs did not receive their FSP benefits within the
                                       required timeframe. The remaining three plaintiffs suffered losses in other
                                       assistance programs such as Medicaid, Supplementary Security Income, cash
                                       assistance, and Child Health Plan Plus.

                                       A verdict for this case was reached on December 21, 2004. The Colorado
                                       District Court required a 40 percent reduction in backlogged 27 cases by
                                       February 28, 2005. Each 60 days thereafter, a 40 percent reduction was
                                       required until the State substantially complied with Federal law. As of
                                       November 2004, over 29,000 cases were not processed in the required
                                       timeframes. The State complied with the ruling and reduced backlogs by
                                       68 percent to just over 9,500 cases in February 2005. In March 2008, the
                                       court approved a settlement agreement between the State and the plaintiffs.
22
     CBMS is designed to identify any discrepancy in authorized benefits. CBMS caseworkers must then research a discrepancy to determine if it is a valid
     claim.
23
     Adams County officials could not provide us with the total number of cases with potential claims.
24
     Title 7 C.F.R. 274.1, January 1, 2007
25
     Title 7 C.F.R. 273.18(a)(3), January 1, 2007
26
     B-4631, 10 Colorado Code of Regulations 2506-1.
27
     Cases that did not receive benefits in the required amount of time.

USDA/OIG-Audit No. 27099-68-Hy                                                                                                                 Page 7
                                        The agreement has two major parts. First, Colorado agreed that new
                                        applications must be processed within the timelines set out in FSP
                                        regulations. Second, Colorado agreed to produce a variety of monthly reports
                                        to the plaintiffs showing the performance in processing applications.

                                        FNS MPRO officials identified problems with CBMS while performing their
                                        monthly reconciliations of the EBT system. Between July and
                                        September 2004, the monthly amount of FSP benefits issued was consistently
                                        around $21 million. However, in October 2004, FSP benefit issuance rose to
                                        over $24 million. By December 2004, the State was issuing over $29 million
                                        per month in FSP benefits, an increase of approximately $8 million per
                                        month since September 2004. FNS found that the State delivered benefits to
                                        recipients without properly determining eligibility. As a result, FNS
                                        recovered over $1 million from the State for the improper issuance of FSP
                                        benefits from October to December 2004.

                                        FNS MPRO more closely examined FSP issuances by performing data
                                        analysis on all FY 2005 issuances. FNS MPRO identified the benefit amounts
                                        that households were authorized to receive. They compared this information
                                        with issuance data from the State’s EBT Processor which identified over
                                        $11 million in over-issuances. FNS MPRO submitted a bill of collection for
                                        this amount and CDHS appealed to the State Food Stamp Appeals Board. In
                                        April 2007 the Appeals Board ruled that CDHS was liable to the Federal
                                        Government for more than $11 million in over-issuances to FSP recipients.

                                        The analysis found that design flaws in CBMS failed to account for previous
                                        issuances when making adjustments to recipient’s accounts. CDHS resolved
                                        this issue in February 2006. FNS MPRO’s analysis also disclosed a
                                        combination of system design flaws and data entry errors that resulted in the
                                        over-issuances. CDHS tried to resolve this issue through caseworker training
                                        but their efforts to date remain unsuccessful. FNS MPRO performed an
                                        analysis on FY 2006 FSP issuances similar to the FY 2005 analysis. We have
                                        not examined the results of this analysis because FNS has not finalized the
                                        analysis report.

                                        Federal regulations allow the State to collect over-issuances made to FSP
                                        recipients. 28 However, the December 2004 court order prevented CDHS from
                                        collecting over-issuances from FSP recipients if the County Director of
                                        Social Services determined that an overpayment was caused by the failure of
                                        CBMS to operate properly.

                                        Our initial review of the FY 2006 issuance data found 46 issuances totaling
                                        $22,459 that were caused by caseworker data entry errors. During our audit
                                        fieldwork, CDHS recovered $3,751 of this amount. However, many counties
                                        defined data entry errors as system-caused errors because of the increased
                                        workload that CBMS problems created. Therefore, the State is unable to

28
     Title 7 C.F.R. 273.18, January 1, 2007

USDA/OIG-Audit No. 27099-68-Hy                                                                                Page 8
                                        collect the remaining $18,708. Federal regulations place liability on the State
                                        for the value of benefits over-issued to FSP recipients. 29 The State is liable to
                                        the Federal Government for the over-issuances we identified and should
                                        remit payment to FNS for $18,708, if not already billed.

                                        In a more in-depth review, we extracted all households that had duplicate
                                        issuances in the same benefit month and found an additional 591 duplicate
                                        issuances totaling $83,379 (See Exhibit A). FNS should work with CDHS to
                                        research these 591 issuances and pursue collection on any over-issuances
                                        identified and allowable under the court order.

                                        We also found that Colorado has been unable to effectively establish claims
                                        since the implementation of CBMS. CBMS was not properly programmed to
                                        recognize a rule that would prevent invalid claims from being established
                                        against FSP recipient accounts. The 10-10-11 Rule is supposed to prevent
                                        claims from being established for months they were not intended. 30 Jefferson
                                        County officials performed a random sample of 30 outstanding claims to
                                        determine if the claims were correctly established and it was determined that
                                        14 of the 30 claims were established erroneously due to the 10-10-11 Rule
                                        programming errors.

                                        Jefferson County officials stated that they receive an average of 700 to
                                        800 new discrepancy records (i.e., potential claims) on a monthly basis. They
                                        also stated that it can take several hours for a caseworker to validate a
                                        discrepancy record because of the complexity of CBMS. They do not have
                                        enough resources to effectively issue benefits and validate these records. This
                                        has caused Jefferson County to fall behind in the validation of potential
                                        claims.

                                        Jefferson County provided us with a spreadsheet that they used as a tool for
                                        populating outstanding claims. As of September 30, 2007, the county had
                                        almost 17,000 potential claims totaling almost $6.4 million. Adams County
                                        officials did not keep similar records and were only able to provide us with
                                        the total dollar amount. As of September 31, 2007, Adams County had over
                                        $11 million in potential claims.

                                        CDHS is working with its contractor to correct any processing errors. CDHS
                                        needs to research the potential over-issuances identified in the audit and
                                        pursue for collection those that were not covered by the court order. CDHS
                                        needs to ensure CBMS establishes only valid claims. Finally, based on the
                                        large amount of errors found in FY 2005, and the errors found in our audit,
                                        FNS should perform data analysis for FY 2007 if the 2006 analysis project

29
     Title 7 C.F.R 276.2(b)(1)(iii), January 1, 2007
30
     Under the 10-10-11 Rule, a household is required to report changes in household circumstances within 10 days of the change; the agency has 10 days to
     make the change, and 11 days to notify the recipient of the new action. Claims are being established for payments already made to EBT recipients
     falling within the 31 day reporting period (10-10-11). The claim is invalid due to CBMS not taking into account the 10-10-11 reporting requirement. In
     other words, the client is entitled to the current month’s benefits and does not owe the benefits back, thus making the claim invalid. If a claim is
     established after batch cutoff (20th of the month), the 10-10-11 rule does not go into effect until the next month. In this scenario, an invalid claim for
     two month’s benefits could be established.

USDA/OIG-Audit No. 27099-68-Hy                                                                                                                      Page 9
                    discloses a significant amount of over-issuances. If the analysis shows further
                    over-issuances, FNS should pursue payment from CDHS on these errors.

Recommendation 2
                    Require CDHS to develop and implement an action plan with specific
                    milestone dates for ensuring that errors in CBMS are corrected. This should
                    include detailed items on working with its contractor to ensure all CBMS
                    processing issues are timely resolved.

                    Agency Response

                    FNS concurs with Recommendation No. 2. On December 31, 2007, the State
                    of Colorado submitted a comprehensive corrective action plan with specific
                    milestone dates to FNS that provided a detailed list of system improvements
                    completed as well as those scheduled for implementation. This plan was
                    reviewed and approved by FNS on February 20, 2008. To date, the majority
                    of these system improvements, including determining the correct potential
                    claim amount following the 10-10-11 Rule, have been implemented.

                    OIG Position

                    OIG accepts FNS’ management decision.

Recommendation 3
                    Require CDHS to repay FNS MPRO the $18,708 in erroneous benefit
                    issuances identified.

                     Agency Response

                     FNS is in the process of examining the erroneous benefit issuances identified
                     by OIG auditors to ensure that the issuances have not already been included
                     in the FY2005 or FY2006 billing that FNS has sent to CDHS. FNS will
                     require CDHS to repay FNS MPRO any of the erroneous benefit issuances
                     identified by OIG auditors for which CDHS has not already been billed.

                    OIG Position

                    Although we agree with the approach, we cannot accept FNS’ management
                    decision until FNS provides a proposed completion date for the examination
                    of the erroneous issuances identified by OIG to ensure the issuances have not
                    already been billed. In addition, FNS needs to provide a copy of the bill for
                    collection of amounts determined to be owed to the Government and support
                    that the amounts have been entered as a receivable on the agency's
                    accounting records.
Recommendation 4
                    Work with CDHS to research the 591 duplicate issuances totaling $83,379 to
                    determine the party responsible for any over-issuances. CDHS should pursue
                    collection on any over-issuances from recipients not covered by the court
USDA/OIG-Audit No. 27099-68-Hy                                                            Page 10
                    order. If the over-issuance was covered by the court order, FNS should
                    collect the amount of the over-issuance from CDHS.

                    Agency Response

                    FNS is in the process of examining the 591 duplicate issuances identified by
                    OIG auditors to ensure that the issuances have not already been included in
                    the FY 2005 or FY 2006 billing that FNS has sent to CDHS. FNS will require
                    CDHS to repay FNS MPRO any of the 591 duplicate benefit issuances
                    identified by OIG auditors that CDHS is responsible to repay to FNS MPRO,
                    and for which CDHS has not already been billed. FNS will also advise the
                    State to establish recipient claims for any of the 591 duplicate issuances
                    which are valid claims and are not covered by the court order.

                    OIG Position

                     In order to achieve management decision, FNS needs to provide a proposed
                     completion date for the examination of the 591 issuances identified by OIG
                     auditors to ensure the issuances have not already been billed. In addition,
                     FNS needs to provide a copy of the bill for collection of amounts determined
                     to be owed to the Government and support that the amounts have been
                     entered as a receivable on the agency's accounting records.

Recommendation 5
                    Perform data analysis, similar to the FY 2005 analysis, for FY 2007, if the
                    FY 2006 analysis discloses a significant amount of over-issuances. If the
                    analysis shows further over-issuances, FNS should pursue collection from the
                    State for these errors.

                    Agency Response

                    FNS concurs with Recommendation No. 5.

                    OIG Position

                    In order to achieve management decision, FNS needs to provide a proposed
                    completion date for the analysis of the FY 2006 data and a determination if
                    an analysis of FY 2007 data is warranted.

Recommendation 6
                    Require CDHS to develop and implement an action plan with specific
                    milestone dates to have CBMS establish only valid claims.

                    Agency Response

                    FNS concurs with Recommendation No. 6. Please note, however, that CDHS
                    establishes claims, not CBMS.

USDA/OIG-Audit No. 27099-68-Hy                                                           Page 11
                    OIG Position

                     In order to achieve management decision, FNS needs to provide a
                     description of CDHS’ action plan and the proposed completion dates to
                     ensure CDHS establishes only valid claims.




USDA/OIG-Audit No. 27099-68-Hy                                                    Page 12
Section 3               Inadequate Oversight of FSP Operations

                                        CDHS is responsible for the basic oversight of operations necessary to ensure
                                        the integrity of Federal funds provided for the FSP in Colorado. Federal
                                        funds include FSP benefits as well as half of the funds used to administer
                                        those benefits. The following four weaknesses, if not addressed, leaves
                                        Federal funding for the FSP susceptible to misuse. Specifically, CDHS:

                                        •     Did not properly use EBT management reports,

                                        •     Did not establish fraud detection units to detect trafficking, 31

                                        •     Could not accurately verify billing invoices for EBT services, and

                                        •     Did not adhere to card replacement fee requirements.

Finding 3                               CDHS Needs to Use EBT Management Reports to Strengthen
                                        Program Oversight

                                        Although Colorado officials were aware of EBT management reports
                                        provided by JPM, we did not find evidence that CDHS used them. The
                                        reports included information on out-of-State usage of FSP benefits, manual
                                        (off-line, paper) transactions, and even dollar transactions. This occurred
                                        because CDHS did not assign responsibilities and duties to individuals to
                                        ensure that FSP redemptions are monitored regularly, corrective actions are
                                        taken on problems identified, and suspicious transactions are referred to the
                                        proper authorities. Instead, CDHS focused their attention on recipients who
                                        misused cash benefits. 32 In addition, they conducted required food stamp
                                        quality control reviews of eligibility determinations to ensure the proper
                                        benefit amounts were authorized. Using EBT management reports that JPM
                                        made available to CDHS, we identified over $2 million in questionable
                                        transactions that may be indicative of recipient trafficking in Colorado’s FSP
                                        from April to September 2006. As a result, the integrity of Colorado’s FSP
                                        was weakened and the detection of improper FSP activity was compromised.

                                        Federal regulations require that the State ensure that the EBT system provides
                                        reports that enable it to manage the system properly. 33
                                        CDHS did not establish a process for using JPM’s management reports to
                                        monitor the propriety of FSP transactions by recipients; therefore, they did
                                        not identify cases of suspicious activity for investigative followup. We
                                        analyzed EBT management reports that JPM had made available to CDHS
                                        and identified FSP redemption activity that warranted further review. We
                                        reviewed the Out-of-State Usage and Manual Transactions Reports for June

31
     Exchanging food stamp benefits for cash.
32
     Cash benefits include other Federal and State welfare benefits, not FSP benefits.
33
     Title 7 C.F.R. 274.12(j)(2), January 1, 2007

USDA/OIG-Audit No. 27099-68-Hy                                                                                     Page 13
                                       through August 2006. We also reviewed the Even Dollar Transactions
                                       Reports for April through September 2006.

                                       The Out-of-State Usage Report identifies FSP recipients that use their
                                       benefits outside of the State in which they reside. Federal requirements allow
                                       a recipient to move out of State without reporting an address change;
                                       however, the Out-of-State Usage Report could still be a useful tool for
                                       identifying recipients who might have started obtaining benefits in another
                                       State. 34   We identified 29,936 out-of-State transactions totaling
                                       $2,006,890. We then extracted transactions in States that did not border
                                       Colorado and found that 2,050 transactions by 165 FSP recipients occurred in
                                       States that did not border Colorado. In addition, we extracted
                                       520 transactions from 115 FSP recipients that did not have a valid social
                                       security number. We referred these 280 recipients to county officials for
                                       followup, which included 173 recipients who consistently (i.e., three
                                       consecutive months) redeemed food stamp benefits in 12 states 35 that did not
                                       border Colorado. For example, one client bought over $2,600 worth of food
                                       in California, which is over 1,000 miles away from the county the client
                                       applied for benefits in Colorado. Three counties initiated various followup
                                       actions on 13 recipients as a result of our review of the Out-of-State Usage
                                       Report. In addition, we identified suspicious transactions for a recipient at an
                                       out-of-State supermarket, which we referred to OIG’s Office of
                                       Investigations because of possible trafficking.

                                       The Manual Transactions Report can be analyzed for signs that food stamp
                                       redemption has increased enough to justify issuing POS equipment to a
                                       business. We identified one warehouse that served group homes and executed
                                       about $9,000 in manual transactions monthly. Because CDHS did not use the
                                       Manual Transaction Report, they were not aware of this level of activity.
                                       When we brought this to their attention, they agreed that the warehouse
                                       needed POS equipment. The Manual Transactions Report can also be
                                       analyzed to identify suspicious or unusual activity at stores with EBT
                                       equipment. We identified a $202 manual transaction for another store that we
                                       suspected was too small to have a food sale that large. We visited the retailer
                                       with an OIG criminal investigator who requested an FNS investigation of the
                                       retailer.

                                       The Even Dollar Transactions Report disclosed eight clients who had
                                       suspicious even dollar transactions totaling $7,413 at four stores between
                                       April 2006 and September 2006. The large or rapidly occurring transactions
                                       prompted us to conduct site visits with an OIG investigator who then initiated
                                       new investigations at three stores. The Joint Task Force on Terrorism, of
                                       which OIG is a member, was already investigating the fourth store.




34
     Simplified reporting under the Farm Security and Rural Investment Act of 2002, Public Law 107-171, enacted May 13, 2002.
35
     California, Florida, Texas, Alaska, Nevada, Georgia, Tennessee, Pennsylvania, New Jersey, Virginia, New York, and Hawaii.

USDA/OIG-Audit No. 27099-68-Hy                                                                                                   Page 14
                                       As a result of our work, several Colorado officials have begun to use EBT
                                       management reports to monitor FSP activity. For example, two counties
                                       drafted procedures to require monthly review of the Out-of-State Usage
                                       Report. In addition, the Director of CDHS’ Audit Division plans to focus on
                                       transactions from this report that fall in a certain error parameter (i.e., during
                                       three consecutive months). We feel that a comprehensive approach is needed
                                       to ensure that State and county officials systematically review a wide array of
                                       management reports for improprieties and possible food stamp fraud.

Recommendation 7
                                       Direct CDHS to develop and implement internal control procedures that
                                       require routine oversight of EBT system activities for food stamps. The
                                       controls should include the assignment of responsibilities to State and county
                                       staff for periodic review and analysis of management reports to detect and
                                       followup on suspicious and unusual food stamp transactions.

                                       Agency Response

                                       FNS concurs with Recommendation No. 7.

                                        OIG Position

                                        To achieve management decision, FNS needs to provide a description of
                                        CDHS’ action plan and the proposed completion dates to develop and
                                        implement the internal control procedures that require routine oversight of
                                        EBT system activities for food stamps.


Finding 4                              CDHS Needs to Establish Food Stamp Fraud Detection Unit(s) to
                                       Investigate Trafficking

                                       CDHS did not establish required fraud detection unit(s) to detect, investigate,
                                       and assist in the prosecution of recipient FSP trafficking. This occurred
                                       because CDHS chose to devote its resources to quality assurance testing of
                                       FSP eligibility determinations 36 not trafficking after benefits have been
                                       issued. In addition, CDHS focused their attention on cash benefits. When we
                                       followed up on why this occurred, the CDHS EBT Director did not respond.
                                       As a result, the integrity of Colorado’s food stamp program was weakened
                                       and the detection of improper EBT activity was compromised. We identified
                                       large or rapidly occurring transactions at three retailers and conducted site
                                       visits with an OIG investigator. The OIG investigator initiated an
                                       investigation for each of these three stores.



36
     FNS has a statistically based quality control program that measures the extent of improper issuances and detects erroneous issuances due to errors in
     determining recipient eligibility. The program provides a system of incentives and penalties to encourage State-administering agencies to lower their
     error rates and ensure that eligible individuals receive the proper amount of program benefits.


USDA/OIG-Audit No. 27099-68-Hy                                                                                                                Page 15
                                     Federal regulations 37 require State agencies to establish and operate fraud
                                     detection units in all project areas in which 5,000 or more households
                                     participate in the FSP. The regulations assign the fraud detection units
                                     responsibility for detecting, investigating, and assisting in the prosecution of
                                     FSP fraud. The regulations state that a written State agency procedure that
                                     systematically identifies and refers potential fraud cases to investigators
                                     constitutes a “detection” activity. While the Federal Government monitors
                                     retailer participation 38 requirements, it is the State’s responsibility to monitor
                                     actions by FSP recipients. 39 In addition, Colorado legislation 40 established
                                     misdemeanor and felony penalties for individuals who traffic food stamps.
                                     Concerns about CDHS’ fraud detection units surfaced during our review of
                                     the State agency’s use of EBT management reports. The EBT Director
                                     reported that the Colorado State and county offices do not use the processor’s
                                     management reports to do redemption analysis and followup. Therefore, we
                                     could not determine whether the State or county had analyzed suspicious
                                     transactions. CDHS’ Audit Division used management reports, but did not
                                     focus on food stamp trafficking because CDHS officials felt that their quality
                                     assurance officials perform statistically valid testing for the FSP. However,
                                     this testing focuses on recipients who improperly collect benefits rather than
                                     trafficking after the benefits have been issued.

                                     We visited two of the State’s large county offices and found that they do not
                                     detect, investigate, or assist in prosecuting FSP traffickers. Jefferson County
                                     has an investigations unit; however, their staff performed no food stamp
                                     trafficking work. Adams County has an investigations unit that does not
                                     analyze food stamp redemptions. Their primary duties concern cash benefits,
                                     help desk referrals, and requests from the CDHS Audit Division.

                                     By using EBT management reports, we identified instances of possible
                                     trafficking at three retailer stores. By using the EBT management reports,
                                     OIG Investigations opened an investigation into these three stores. (See
                                     Finding 3.)

                                     In March 2000, the Government Accountability Office (GAO) 41 reported that
                                     FNS and States could use electronic data better to disqualify recipients who
                                     traffic food stamp benefits. Colorado was 1 of the 29 States included in
                                     GAO’s review. GAO found that Colorado had not independently and
                                     proactively analyzed their electronic databases to identify recipients
                                     suspected of trafficking food stamps. Colorado also had not used the list of
                                     suspected trafficking recipients that FNS provided, or any other source to
                                     investigate and disqualify recipient traffickers. According to the report, in
                                     July 1999, FNS instructed its regional offices to work with the States to reach

37
     Title 7 C.F.R. 272.4(g), January 1, 2007
38
     Title 7 C.F.R. 278.7(a), January 1, 2007
39
     Title 7 C.F.R. 273.16, January 1, 2007
40
     Section 14. 26-2-306 (2) (b), (2) (c), and (3), Colorado Revised Statutes, effective July 1, 1998.
41
     Audit GAO/RCED-00-61, Food Stamp Program, Better Use of Electronic Data Could Result in Disqualifying More Recipients Who Traffic Benefits,
     March 2000.

USDA/OIG-Audit No. 27099-68-Hy                                                                                                       Page 16
                    agreements on how best to use the EBT data available to identify, investigate,
                    and disqualify trafficking recipients. However, MPRO officials had no
                    documentation to confirm they had worked with Colorado on this issue. They
                    did indicate that this topic had been included in workshops at the EBT State
                    Directors National Conference sponsored by FNS, which Colorado attended.

                    In April 2006, FNS MPRO staff conducted a State Agency Operations
                    Review (SAOR) to determine the administrative and operational compliance
                    in Colorado’s FSP during FY 2006. The FNS National Office required that
                    this review focus on program access, corrective action assessments, the
                    State’s management evaluation system, use of the 15 percent able-bodied
                    adults without dependents exemptions, EBT issuance, and civil rights. The
                    scope of review did not include compliance with requirements for fraud
                    detection. FNS MPRO needs to ensure CDHS complies with Federal FSP
                    requirements for fraud detection.

Recommendation 8
                    Require that CDHS establish fraud detection unit(s) to detect, investigate, and
                    assist in the prosecution of recipient FSP trafficking; and periodically report
                    results of their activities to FNS’ MPRO.

                    Agency Response

                    FNS concurs with Recommendation No. 8.

                    OIG Position

                    To achieve management decision, FNS needs to provide a description of
                    CDHS’ action plan and the proposed completion dates to establish fraud
                    detection unit(s) to detect, investigate, and assist in the prosecution of
                    recipient FSP trafficking; and periodically report results of their activities to
                    FNS’ MPRO.

Recommendation 9
                    Work with CDHS to reach an agreement on how fraud detection unit(s) can
                    best use the EBT data now available to identify, investigate, and disqualify
                    recipients involved in trafficking.

                    Agency Response

                    FNS concurs with Recommendation No. 9.

                    OIG Position

                     In order to achieve management decision, FNS needs to provide a proposed
                     completion date to reach an agreement with CDHS on how fraud detection
                     unit(s) can best use the EBT data now available to identify, investigate, and
                     disqualify recipients involved in trafficking.
USDA/OIG-Audit No. 27099-68-Hy                                                              Page 17
Recommendation 10
                                         Establish an action plan with specific milestone dates to periodically perform
                                         a review to assess CDHS’ compliance with Federal food stamp requirements
                                         for fraud detection and initiate corrective actions for any deficiencies
                                         identified.

                                         Agency Response

                                         FNS concurs with Recommendation No. 10.

                                         OIG Position

                                         In order to achieve management decision, FNS needs to describe its action
                                         plan to periodically perform a review to assess CDHS’ compliance with
                                         Federal food stamp requirements for fraud detection. In addition, FNS needs
                                         to provide the date the agency will begin performing these reviews.


Finding 5                                JPM’s Billing Invoices Need Verification

                                         CDHS could not verify the accuracy of JPM’s billing invoices for EBT
                                         services. This occurred because the State’s eligibility system, CBMS, did not
                                         produce the detailed information necessary to verify case counts billed by
                                         JPM. As a result, CDHS could not assure they were being billed for the
                                         proper amount of FSP cases. 42 In addition, the Federal Government pays
                                         50 percent of the State’s FSP administrative costs, 43 therefore, FNS could
                                         not be assured that they did not overpay for Colorado’s EBT services.

                                         Federal regulations require the State agency to establish a continuing
                                         performance reporting system to monitor program administration and
                                         program operations. 44 In addition, Federal regulations require the State
                                         agency to expend and account for grant funds in accordance with State laws
                                         and procedures for expending and accounting for its own funds. 45

                                         JPM bills CDHS on a monthly basis for FSP EBT services. They use cost per
                                         case month pricing to account for the cost to deliver a single food stamp case
                                         for one month.

                                         CBMS reports case counts monthly on FNS form 388, State Issuance and
                                         Participation Estimates. CBMS case counts did not reconcile to JPM billing
                                         invoices for three randomly selected months in FY 2006 (December 2005,
                                         January 2006, and June 2006). We found that JPM billed CDHS for
                                         1,235 more cases than what was reported on the FNS-388. However, we
                                         found that the FNS-388 is not a reliable report to verify JPM case counts
42
     A case is also referred to as a household.
43
     Title 7 C.F.R. 277.4 (b)
44
     Title 7 C.F.R. 275.2(a)(ii), January 1, 2007
45
     Title 7 C.F.R 3016.20(a), April 17, 2008

USDA/OIG-Audit No. 27099-68-Hy                                                                                 Page 18
                                       because the methodology for counting cases differs between JPM and CBMS.
                                       Cases reported on the FNS-388 include all cases that received FSP benefits as
                                       well as those that met the eligibility requirements of the FSP but received no
                                       benefits. 46 Cases reported on JPM’s billing invoice include only those that
                                       were issued FSP benefits.

                                       An official in the accounting division of CDHS stated that they are aware of
                                       the reconciliation problems. However, they did not believe the differences
                                       were significant enough to correct. JPM and CDHS had billing discrepancies
                                       in the past, which heightens the need to reconcile invoices. Between
                                       July 2000 and February 2004, neither JPM nor CDHS was properly counting
                                       the number of FSP EBT cases residing in group homes. CDHS discovered the
                                       discrepancy in March 2004, and JPM agreed to reimburse the State over
                                       $187,000 in July 2005. These errors occurred under the State’s previous
                                       eligibility system.

                                       As a result of our audit, CDHS put in a change request for CBMS to produce
                                       more detailed information. The change will allow CBMS to run the
                                       FNS-388 back to implementation of CBMS and monthly thereafter. In
                                       addition, information on all FSP cases, such as case number and FSP
                                       allotment, will be organized by county. CDHS needs to ensure this change
                                       request is implemented and all invoices dating back to implementation of
                                       CBMS are accurate.

Recommendation 11
                                       Require CDHS to ensure that CBMS produces a tool to accurately verify the
                                       EBT processor billing amounts during the invoice reconciliation process.

                                       Agency Response

                                       FNS concurs with Recommendation No. 11.

                                        OIG Position

                                        To achieve management decision, FNS needs to provide a description of
                                        CDHS’ action plan and the proposed completion dates to ensure that CBMS
                                        produces a tool to accurately verify the EBT processor billing amounts
                                        during the invoice reconciliation process.

Recommendation 12
                                       Require CDHS to verify invoices from the EBT processor from the time of
                                       CBMS implementation in September 2004, to the present, as well as all
                                       future invoices.




46
     An example of a zero benefits participating household is a household that meets the income limits but does not qualify for the minimum payable benefit
     of $10.

USDA/OIG-Audit No. 27099-68-Hy                                                                                                                 Page 19
                                        Agency Response

                                        FNS concurs with Recommendation No. 12.

                                        OIG Position

                                        To achieve management decision, FNS needs to provide a proposed
                                        completion date for CDHS to verify the EBT processor’s invoices from
                                        September 2004 to the present and their plan to verify future invoices.


Finding 6                               CDHS Needs Stronger Controls over Income from EBT Card
                                        Replacement Fees

                                        CDHS could not identify the amounts of EBT card replacement fees collected
                                        at county offices. This occurred because CDHS did not establish an account
                                        for recording these fees and instruct county offices on how to account for
                                        them. As a result, CDHS could not provide assurances that FSP
                                        administrative costs were reduced to reflect the collections. Colorado had a
                                        monthly average of 107,246 food stamp households in 2006. Colorado
                                        counties issued 60,587 replacement cards between April and
                                        September 2006, for a 6 month average of 10,097 cards per month. We
                                        believe that a card replacement rate of 10 percent is unreasonable and
                                        warrants further review by CDHS and FNS.

                                        Federal regulations 47 allow State agencies to impose a replacement fee and
                                        require that States submit plans to FNS concerning accounting and
                                        circumstances when fees will be collected. Colorado allows its counties to
                                        charge up to $2 per card for card replacements (cash or money order only). 48
                                        However, the revenues generated must be deducted from the county’s
                                        administrative reimbursement. Colorado requires counties to maintain
                                        records of fees assessed for replacing EBT cards. 49

                                        We determined that CDHS did not establish an account for EBT card
                                        replacement fees and instruct county offices on how to account for the
                                        collections. Consequently, officials at the State office were unable to identify
                                        the amount of EBT card replacement fees collected during FY 2004, 2005,
                                        and 2006. Additionally, they lacked information to determine which counties
                                        collected the fees or how they accounted for them. This practice prevents the
                                        reporting of program income to the Federal Government on the Standard
                                        Form (SF) 269, Financial Status Report. 50 A CDHS accountant tried to
                                        identify card replacement fees collected by counties, by examining some
                                        records of county transactions. The accountant found that county workers

47
     Title 7 C.F.R. 274.12(f)(5)(v), January 1, 2007
48
     CDHS Policy and Procedures related to EBT, 10.10 card replacement fees.
49
     CCR 12.105.2.
50
     The State agency uses this form to report its actual administrative costs to FNS on a quarterly basis. These costs include total expenditures, the State
     share of costs, and the Federal share for reimbursement purposes.

USDA/OIG-Audit No. 27099-68-Hy                                                                                                                   Page 20
                    used a variety of methods to account for the fees, which led him to terminate
                    his efforts to determine the amounts collected. Counties reported the
                    collections in cost accounts for printing, office supplies, and communication
                    services; however, a CDHS accountant said that they would have to call
                    counties to determine if they charged the fee, the amounts collected, and the
                    accounting method used. The State agency needs a uniform means of
                    identifying the receipts.

                    In April 2006, FNS MPRO conducted a SAOR of CDHS, which determined
                    that one county charged $2 EBT card replacement fees; however, CDHS had
                    not submitted a plan for FNS’ approval to collect the fees. In
                    August 2006, FNS issued the SAOR report directing CDHS to submit a
                    detailed plan outlining all counties that collect card replacement fees along
                    with the policies and procedures for collecting the fees. In addition, FNS
                    advised that if a county is charging a replacement fee, CDHS must report this
                    amount as program income on the SF-269, Financial Status Report, to ensure
                    accountability within regulatory guidelines. FNS directed Colorado to stop
                    collecting the card replacement fees until CDHS had an FNS approved plan.
                    However, CDHS ignored the direction and continued collecting the fees.
                    CDHS officials did not suspend fee collections because they wanted to
                    minimize disruptions for recipients and the State.

                    We determined that the Colorado EBT system design document did not
                    include a procedure for collecting EBT card replacement fees; therefore, the
                    State needed an approved plan. In October 2006, CDHS officials requested
                    that FNS MPRO approve their plan for charging EBT card replacement fees,
                    and in January 2007, FNS approved the State’s plan.

                    We also identified that JPM issues EBT replacement cards through the mail,
                    at no additional cost to the State or recipients who call the customer service
                    line. The State agency incurs no additional cost when JPM issues the
                    replacements. The cost for JPM to issue EBT cards is part of the monthly bill
                    to the State agency. The FNS approved plan does not mention JPM’s EBT
                    replacement card activities. However, issuance of replacement cards by JPM
                    is an acceptable alternative to having CDHS establish a separate account code
                    for the EBT card replacement fee. The approved plan states that counties are
                    to collect replacement fees; however, the plan does not state how CDHS
                    plans to identify fees collected by counties so they are reported as program
                    income on the SF-269.

                    FNS MPRO officials stated that the State might eliminate EBT card
                    replacement fees because of our audit. If the State eliminated the fees, they
                    should institute controls to ensure that recipients do not get excessive
                    replacement cards as can happen in a State that does not charge recipients a
                    fee to replace EBT cards. Whether the State eliminates the fees or continues
                    to allow county offices to collect them, stronger controls over card
                    replacements are needed. Due to the high card replacement rate disclosed by

USDA/OIG-Audit No. 27099-68-Hy                                                           Page 21
                    this audit, the controls should include procedures to validate the need for card
                    replacements.

Recommendation 13
                    Require CDHS to ensure the use of a separate account code for EBT card
                    replacement fees collected by county offices or require the EBT processor to
                    issue replacement cards. If Colorado eliminates the fee Statewide, require
                    CDHS to develop and implement procedures to monitor excessive EBT card
                    replacements.

                    Agency Response

                    FNS concurs with Recommendation No. 13.

                    OIG Position

                     To achieve management decision, FNS needs to provide CDHS’ approved
                     procedures for replacing EBT cards and accounting for replacement fees
                     collected. In addition, if Colorado decides to eliminate the fees, FNS needs
                     to provide a description of CDHS’ plan to monitor excessive EBT card
                     replacements.

Recommendation 14
                    Require CDHS to develop and implement standards and procedures to
                    monitor and followup on EBT card replacements.

                    Agency Response

                    FNS concurs with Recommendation No. 14.


                    OIG Position

                     In order to achieve management decision, FNS needs to provide a
                     description of CDHS’ action plan and the proposed completion dates for
                     implementing this recommendation.

Recommendation 15
                    Require CDHS to determine the amount of annual EBT replacement card
                    revenues from county offices and implement a system to reduce
                    administrative costs to reflect the collections.

                    Agency Response

                    FNS concurs with Recommendation No. 15.




USDA/OIG-Audit No. 27099-68-Hy                                                             Page 22
                    OIG Position

                    To achieve management decision, FNS needs to provide a description of
                    CDHS’ action plan and proposed completion dates for implementing this
                    recommendation.




USDA/OIG-Audit No. 27099-68-Hy                                                   Page 23
Section 4               Security over the EBT System Needs Strengthening

                                        CDHS needs to strengthen controls concerning users’ access to the EBT
                                        system and access to un-issued EBT cards. The vulnerabilities, if not
                                        addressed, leave the FSP in Colorado susceptible to theft and unauthorized
                                        use.

Finding 7                               EBT System Access Controls Need to be Strengthened

                                        CDHS did not implement sufficient controls over EBT system access. For
                                        example, we identified 34 of 1,167 EBT users had not accessed the system in
                                        over 90 days. They remained active system users even though the EBT
                                        contract requires that user access be deactivated after 90 days of inactivity.
                                        The EBT Director was not aware of the Inactive User’s Report that identifies
                                        users who had not logged into the system in at least 30 days. In addition, a
                                        CDHS manager was able to use a retired person’s log-on ID and password to
                                        gain access to the EBT system. This occurred because CDHS did not
                                        regularly monitor the continued need for access to the EBT system. As a
                                        result, there is an increased risk of unauthorized access to the EBT system.

                                        Federal regulations require State agencies to protect their EBT systems from
                                        potential theft and unauthorized use. However, these regulations do not
                                        specify a timeframe for deleting inactive users from the system. 51 JPM’s
                                        System Security Manual requires users who have not accessed the EBT
                                        system in 90 days to be deactivated 52 and requires users to follow proper
                                        procedures to obtain a user ID and password to the EBT system. 53

                                        CDHS does not have an adequate process for deleting access to the EBT
                                        system. JPM performs EBT system access functions such as providing and
                                        deleting access. CDHS should regularly review the need for access to the
                                        EBT system; however, CDHS officials could not say when the last time a
                                        review occurred. CDHS must notify JPM when EBT system users should be
                                        deactivated. The JPM Security Manual offers use of the Inactive User’s
                                        Report, which lists all users who have not logged onto the EBT system in
                                        30 days. 54 CDHS declined use of this report. The current EBT Program
                                        Director was not aware of this report. He said the decision to decline use of
                                        this report was made by officials who are no longer employed at CDHS. We
                                        asked CDHS officials when they last checked the EBT system for users who
                                        no longer needed access to the system. They did not know when the last
                                        check was performed. CDHS should use the Inactive User’s Report on a
                                        monthly basis, as provided by JPM, to timely identify and delete users who
                                        have not accessed the system in at least 90 days.


51
     Title 7 C.F.R. 274.12(h)(3)(v)(A), January 1, 2007, and Title 7 C.F.R. 277.18(p)(2)(ii)(B), January 1, 2007
52
     Section 3.2.1 of JPMorgan’s System Security Manual.
53
     Section 3.1.3 of JPMorgan’s System Security Manual.
54
     Section 4.18 of JPMorgan’s System Security Manual.

USDA/OIG-Audit No. 27099-68-Hy                                                                                     Page 24
                    We identified a log-on ID and password of a full time employee who retired
                    in September 2005 that was used to access the EBT system in
                    January 2006. A CDHS manager did not follow proper procedures for
                    obtaining access to the EBT system. She used the retiree’s logon ID and
                    password to perform the retiree’s reconciliation job duties and obtain access
                    to the data used for reconciliations. Her previous EBT system access
                    authorities did not include access to the data used for the reconciliation. The
                    Information Technology Manager encouraged her to follow proper
                    procedures to obtain access to the EBT system, but she chose not to do so.
                    She ignored procedures in place to gain access to the EBT system because
                    she felt that the pressure of the job did not give her enough time to properly
                    obtain EBT system access. CDHS officials could not determine how the
                    manager obtained the user’s password.

                    We found the application process for accessing the EBT system is not time
                    consuming. Applicants must fill out a one page form, obtain proper
                    signatures, and forward the form to JPM. Essentially, the user who retired
                    still had access to the EBT system for nearly four months after her retirement
                    date. CDHS must timely delete terminated employees log-on IDs to prevent
                    FSP benefits from potential theft and unauthorized use.

Recommendation 16
                    Require CDHS to develop and implement an action plan with specific
                    milestone dates for ensuring that established requirements regarding EBT
                    system access are followed. The plan should include use of system
                    monitoring reports, including the Inactive User’s Report.

                    Agency Response

                    FNS concurs with Recommendation No. 16.

                    OIG Position

                     To achieve management decision, FNS needs to provide a description of
                     CDHS’ action plan and the proposed completion dates for ensuring that
                     established requirements regarding EBT system access are followed. The
                     plan should include use of system monitoring reports, including the Inactive
                     User’s Report.

Recommendation 17
                    Require CDHS officials to work with their EBT processor to delete logon IDs
                    and passwords when EBT system users terminate employment.




USDA/OIG-Audit No. 27099-68-Hy                                                            Page 25
                                       Agency Response

                                       FNS concurs with Recommendation No. 17.

                                       OIG Position

                                       To achieve management decision, FNS needs to provide a proposed date
                                       when procedures will be developed and implemented to remove logon IDs
                                       and passwords when EBT system users terminate employment.


Finding 8                              CDHS Controls Over EBT Cards Need Improvement

                                       CDHS did not adequately control un-issued benefit cards. We identified two
                                       concerns regarding CDHS’ control of un-issued benefit cards. First, the State
                                       authorized waivers 55 for 25 small counties that allowed eligibility workers to
                                       issue EBT cards without FNS’ approval. However, certification and issuance
                                       functions should be segregated. The waivers were issued because of
                                       inadequate staff at small counties. In FY 2006, 24 of these counties with
                                       waivers issued more than $17.5 million in food stamp benefits involving over
                                       80,000 distinct cases. 56 Second, at the two large counties that we visited,
                                       county officials did not adequately control un-issued benefit cards. For
                                       example, in both counties, the bulk supply of un-issued cards was accessible
                                       to employees who did not need this access. This occurred because the State’s
                                       EBT card issuance guidance to County offices insufficiently addressed
                                       security over the inventory of blank EBT cards. As a result, there is increased
                                       risk of unauthorized use of FSP benefits.

                                       FNS program regulations state that controls should ensure the security of
                                       un-issued EBT cards 57 and establish an organizational structure that divides
                                       the responsibility for eligibility determinations and card issuance. 58

                                       In June 2006, CDHS issued an agency letter that waived separation of duties
                                       responsibilities at small county offices. They acknowledged that small county
                                       offices lacked sufficient staff to assign eligibility duties and card issuance
                                       duties to different workers. CDHS did not obtain approval from FNS that
                                       would allow eligibility workers in small county offices to issue EBT cards as
                                       required by Federal regulations. 59 FNS MPRO agreed that CDHS should
                                       have obtained approval prior to issuing the waiver. FNS should require
                                       CDHS to rescind this waiver. Colorado’s EBT contract states that JPM has
                                       the ability and authority to issue, replace, and deliver EBT cards to
                                       cardholders by mail, at no additional cost to Colorado. FNS should require
                                       CDHS to have JPM perform this responsibility in small county offices to

55
     These are State approved waivers, not FNS approved waivers.
56
     We excluded the issuance data provided on Rio Blanco County because the State did not grant a waiver to all locations within the county.
57
     Title 7 C.F.R. 274.12(h)(3), January 1, 2007
58
     Title 7 C.F.R. 272.4 (c) (1), January 1, 2007
59
     Title 7 C.F.R. 272.4(c)(2), January 1, 2007

USDA/OIG-Audit No. 27099-68-Hy                                                                                                                  Page 26
                    prevent caseworkers from having access to both eligibility and card issuance
                    duties.

                    At the two large county offices we visited, the officials responsible did not
                    consistently follow card security procedures. Weak controls over un-issued
                    EBT cards could lead to benefits being issued to ineligible persons. The
                    officials informed us that they did not believe that their operating practices
                    posed a risk of loss to FSP benefits.

                    •   The bulk supply of un-issued cards in both Adams and Jefferson counties
                        was accessible to employees who had no bulk inventory duties.

                    •   In Jefferson County, a worker, who closed the card issuance activities at
                        the end of the workday, stored the day’s supplies in the safe with the
                        county’s bulk EBT card inventory. This worker was not responsible for
                        bulk inventory duties. In addition, Jefferson County officials did not
                        perform weekly audits of blank EBT cards as mandated by the State
                        because the county accounting staff only audited cash equivalents (bus
                        tokens, gas vouchers, etc.) A county official said that the State did not
                        take exception to this practice when they did their previous management
                        review.

                    •   In Adams County, we found a variety of card security weaknesses.
                        Business office workers who had no EBT card issuance duties stored their
                        supplies in the safe that contained un-issued EBT cards and they had
                        unsupervised access to the cards. There was no second-party review of
                        the monthly report on the bulk card inventory and no one reconciled the
                        reported monthly bulk card inventory to the actual count of un-issued
                        EBT cards. The official responsible for the bulk inventory of blank EBT
                        cards also issued EBT cards to clients. County workers destroyed
                        damaged EBT cards monthly instead of daily as instructed by the State
                        agency. EBT card issuers had access to bags of un-issued cards that were
                        assigned to other EBT card issuers, and had access to keys that unlocked
                        the bags. Card issuers routinely distributed replacement cards although
                        there was no evidence that authorization was obtained.

                    During the April 2007 National EBT Conference, the Director of CDHS’
                    Office of Performance Improvement Audit Division advocated EBT card
                    controls to prevent internal employee fraud. The first control offered was “the
                    absolute segregation of duties between those who can authorize benefits and
                    those who issue EBT cards.”

Recommendation 18
                    Require CDHS to rescind the State waivers that allowed county eligibility
                    workers to issue EBT cards.



USDA/OIG-Audit No. 27099-68-Hy                                                            Page 27
                    Agency Response

                    FNS concurs with Recommendation No. 18.


                    OIG Position

                    To achieve management decision, FNS needs to provide the date that CDHS
                    expects to rescind the State waivers that allowed county eligibility workers to
                    issue EBT cards.

Recommendation 19
                    Require CDHS to develop and implement a process for issuing EBT cards
                    while maintaining proper segregation of duties when the county does not
                    have a second worker on duty to issue the cards.

                    Agency Response

                    FNS concurs with Recommendation No. 19.

                    OIG Position

                    To achieve management decision, FNS needs to provide a description of
                    CDHS’ action plan and the proposed completion dates to develop and
                    implement a process for issuing EBT cards while maintaining proper
                    segregation of duties when the county does not have a second worker on duty
                    to issue the cards.

Recommendation 20
                    Require CDHS to develop and implement an action plan with specific
                    milestone dates for strengthening requirements regarding the security of
                    un-issued EBT cards and ensuring the requirements are followed.

                    Agency Response

                    FNS concurs with Recommendation No. 20.

                    OIG Position

                    To achieve management decision, FNS needs to provide a description of
                    CDHS’ action plan and the proposed completion date for CDHS to strengthen
                    requirements regarding the security of un-issued EBT cards and ensure the
                    requirements are followed.




USDA/OIG-Audit No. 27099-68-Hy                                                            Page 28
Scope and Methodology
                    We selected EBT operations in Colorado for review because FNS MPRO
                    officials brought to our attention the multimillion dollar discrepancies that
                    FNS identified as a result of the failures of CBMS to operate properly. As
                    part of our multi-year review to evaluate EBT operations for FNS’ FSP, we
                    have issued a report on FNS National Office oversight of EBT operations
                    (Audit Report No. 27099-66-Hy, issued September 2006). We have also
                    issued a report on JPM’s oversight of EBT operations (Audit Report
                    No. 27099-69-Hy, issued September 2007).

                    At FNS MPRO, we determined the adequacy of its oversight of Colorado’s
                    EBT system. We performed fieldwork at the Colorado State Agency, CDHS,
                    and at Jefferson County’s Human Services Department, as well as Adams
                    County’s Social Services Department. We judgmentally selected these
                    counties because of the high amount of recipients involved in the FSP. We
                    audited the State’s controls over the EBT system and the accuracy of EBT
                    benefits being delivered. We also visited retailers with an OIG investigator,
                    based upon judgmental selection of suspicious EBT transactions. The audit
                    did not include State agency certification of recipients for FSP benefits or
                    FNS Field office retailer approval functions.

                    At the entrance conference, we asked CDHS and FNS MPRO officials
                    whether they had any concerns about operational areas that we could further
                    review during the audit. FNS MPRO informed us that our audit would
                    duplicate work they planned to perform in their FY 2006 Financial
                    Management Review (FMR) related to EBT reconciliations. Therefore, we
                    deferred the reconciliation work to FNS. FNS MPRO performed the FMR
                    because CDHS had not performed required daily and monthly reconciliations
                    of the EBT system for FY 2006. However, CDHS improved its reconciliation
                    procedures throughout our audit with assistance provided by FNS MPRO.

                    We reviewed the compliance of the following areas with applicable Federal
                    and State regulations and the EBT processor’s contract with the State:

                    •   EBT system security,
                    •   Integrity of EBT benefits being delivered to recipients
                    •   FNS MPRO oversight of CDHS, and
                    •   CDHS management of its EBT system.

                    We conducted interviews and reviewed documents pertaining to:

                    •   FNS MPRO’s roles in the oversight of Colorado’s EBT system,
                    •   CDHS’ management of their EBT system,
                    •   Suspicious transactions on EBT management reports,
                    •   EBT system security at Colorado counties,

USDA/OIG-Audit No. 27099-68-Hy                                                           Page 29
                    •   Prior audits and reviews.

                    We performed audit fieldwork and analyses from August 2006 to
                    June 2007. We suspended fieldwork in June 2007 because of other
                    high-priority, Congressionally-requested work. We resumed fieldwork in
                    December 2007 and finished in January 2008. We conducted this
                    performance audit in accordance with Generally Accepted Government
                    Auditing Standards. Those standards require that we plan and perform the
                    audit to obtain sufficient, appropriate evidence to provide a reasonable basis
                    for our findings and conclusions based on our audit objectives. We believe
                    that the evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objectives.




USDA/OIG-Audit No. 27099-68-Hy                                                           Page 30
Exhibit A – Summary of Monetary Results
                                                                                                                             Exhibit A – Page 1 of 1
RECOMMENDATION DESCRIPTION                                                     AMOUNT                                CATEGORY
NUMBER
3              Claims that have been                                           $18,708                               Questioned Costs,
               established on                                                                                        Recovery
               erroneous issuances but                                                                               Recommended
               have not yet been
               collected.
4              Duplicate payments                                              $83,379                               Questioned Costs,
               identified in OIG                                                                                     Recovery
               sample.                                                                                               Recommended

                                             Total                            $102,087 60




60
     CDHS collected $3,751 in erroneous issuances. This amount added to the questioned costs above equals the nearly $106,000 of potential over-issuances
     noted in this report.

USDA/OIG-Audit No. 27099-68-Hy                                                                                                               Page 31
Exhibit B – Agency Response
                                 Exhibit B – Page 1 of 4




USDA/OIG-Audit No. 27099-68-Hy                Page 32
                                 Exhibit B Page 2 of 4




USDA/OIG-Audit No. 27099-68-Hy              Page 33
                                 Exhibit B Page 3 of 4




USDA/OIG-Audit No. 27099-68-Hy              Page 34
Exhibit B Page 4 of 4
